Attorneys for Petitioner
William Spencer Consovoy
Counsel of Record

Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209

(703) 243-9423

will@consovoymccarthy.com
Party name: Students for Fair Admissions, Inc.
Attorneys for Respondent
Seth P. Waxman
Counsel of Record

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
Seth.Waxman@wilmerhale.com

Party name: President and Fellows of Harvard College

(202) 663-6800

